  Office of Inspector General
      Audit Report


FRA IS NEARING COMPLETION OF RULES
    REQUIRED BY THE RAIL SAFETY
  IMPROVEMENT ACT, BUT NEEDS TO
         IMPROVE OVERSIGHT
       Federal Railroad Administration
        Report Number: CR-2013-070
         Date Issued: April 17, 2013
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FRA Is Nearing Completion of Rules                Date:    April 17, 2013
           Required by the Rail Safety Improvement Act, but
           Needs to Improve Oversight
           Federal Railroad Administration
           Report No: CR-2013-070

  From:    Mitchell L. Behm                                       Reply to
                                                                  Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime, and
           Economic Analysis

    To:    Federal Railroad Administrator

           In response to several high profile accidents between 2002 and 2008 that resulted
           in hundreds of casualties and millions of dollars in damages, Congress passed the
           Rail Safety Improvement Act (RSIA) of 2008. 1 For example, a 2005 collision—
           between two freight trains in Graniteville, SC—resulted in the release of chlorine
           gas from a tank car. The accident killed 9 people, required the evacuation of 5,400
           others, and caused over $6.9 million in damages. In September 2008, the collision
           of a commuter train and a freight train in Chatsworth, CA, resulted in 25 deaths,
           125 injuries, and over $12 million in damages.

           RSIA—the first statute in almost 15 years that reauthorizes the Federal Railroad
           Administration’s (FRA) safety programs—requires FRA to undertake several
           wide-ranging tasks that broaden its safety-related responsibilities while it
           continues to meet its pre-existing responsibilities. Among these new
           responsibilities are requirements that FRA promulgate 17 rules to improve railroad
           safety. Because of this significant increase in the Agency’s rail safety
           responsibilities, we reviewed FRA’s implementation and oversight of the new
           safety rules. Our objectives were to assess FRA’s: (1) progress in completing the
           RSIA-required rules; and (2) ability to ensure compliance with the new rules.

           In conducting this audit, we reviewed RSIA and FRA documents related to
           regulatory development, promulgation, and enforcement. We interviewed FRA
           officials responsible for developing, issuing and ensuring industry compliance
           1
            Pub. L. No. 110-432, Div. A.
                                                                                                                     2


with rules. We also interviewed representatives of the railroad industry and
railroad labor organizations. We conducted this audit between February 2012 and
January 2013, in accordance with generally accepted Government auditing
standards. Exhibit A contains further details on our scope and methodology.

RESULTS IN BRIEF

FRA has issued 8 of the 17 RSIA-required rules and has made progress on
finalizing the remaining 9. However, the Agency issued seven of the eight after
their statutory deadlines, and has missed the deadlines for six of the remaining
nine. Weaknesses in FRA’s planning for its rulemaking work delayed rule
issuance. While FRA focused its early efforts almost entirely on the rule on
positive train control (PTC), 2 Agency officials did not establish priorities for work
on the other rules. Furthermore, FRA’s policy does not incorporate best practices
for Federal Advisory Committees, and the Agency also did not follow its own
policy for using its Rail Safety Advisory Committee (RSAC), 3 resulting in
procedural inefficiencies. For example, FRA staff did not distribute an important
document in advance of a working group’s meeting, and the Agency’s economist
did not identify the rule’s cost-benefit implications for stakeholders during group
discussions. Delayed promulgation of RSIA-required rules delays the mitigation of
railroad industry safety hazards that Congress intended the rules to address.

FRA did not provide its oversight staff with the guidance, training, and
supervision required to oversee compliance with certain RSIA rules. The Agency
did not update its compliance manuals to reflect new rules before beginning
oversight of five new rules—PTC, electronic recordkeeping for hours of service,
concrete crossties, bridge safety standards, and camp car health and safety.
Furthermore, FRA staff reported that they received insufficient training to oversee
compliance with the PTC, camp car health and safety standards, and electronic
recordkeeping rules. Finally, FRA has not defined what constitutes adequate
supervisory review, and does not require documentation of supervisory reviews.
As a result, supervisory review of safety oversight work has been limited and
inconsistent. The lack of updated compliance manuals, sufficient training, and
consistent supervisory review of oversight work impedes FRA’s efforts to ensure
compliance with RSIA rules.



2
  PTC is a communication-based system designed to prevent accidents caused by human factors, including train
collisions, derailments due to speed, incursions into work zones, and movement of trains through switches left in wrong
positions. Human factor accidents are accidents due to causes such as employee physical condition, improper
communications, and improper train handling.
3
  RSAC is a Federal Advisory Committee. These committees provide advice to the President and Executive Branch
agencies on a broad range of issues that affect Federal policies and programs—including development of rules—and
afford the public an opportunity to provide input to Government decisions.
                                                                                                                 3


We are making a series of recommendations to strengthen FRA’s rulemaking
planning process and subsequent oversight of implementation of new rules by the
railroad industry.

BACKGROUND

RSIA requires FRA to complete a number of initiatives to improve rail safety. The
17 new or revised rules will govern a wide variety of safety areas, including PTC,
track maintenance, recordkeeping for employees’ hours of service, and
highway-rail grade crossings. 4 RSIA also mandated deadlines for 13 of the rules
that span more than 4 years.

FRA follows the standard process by which Federal agencies promulgate new or
revised rules. After enactment of a Federal statute that requires an agency to
promulgate rules, the agency initiates the rulemaking by preparing a proposed rule
and publishing a Notice of Proposed Rulemaking (NPRM) in the Federal Register.
An NPRM provides the public an opportunity to review and comment on the
proposed rule. After the public comment period, the agency publishes a final rule
that includes a discussion of the comments. The public then has 60 days to file
petitions with the agency requesting reconsideration of the rule. After resolution of
any petitions to reconsider, the rule is subject to judicial review in Federal court.

In 1996, FRA established RSAC, a Federal Advisory Committee, to assist in its
development of rail safety rules. The RSAC process brings together stakeholders
to facilitate communication and development of realistic rules that can be more
readily and quickly implemented. RSAC members represent 39 entities, including
the Federal Government, State governments, railroad industry associations, rail
carriers, labor unions, railroad suppliers, and other industry associations. At its
discretion, the Agency requests RSAC’s assistance, and RSAC forms a working
group to address the task. Working groups develop recommendations that they
send to the full Committee, which then recommends regulatory language to FRA.
Though it is not required to, FRA generally develops its NPRMs based on RSAC’s
recommendations. FRA staff represent the Agency on the working groups and
provide leadership to guide working groups’ deliberations. The Agency has
produced guidance that outlines goals for the process; defines the roles of each
member of FRA’s team; and specifies requirements for communications within the
team, with FRA management, with RSAC stakeholders, and with the Office of the
Secretary of Transportation and the Office of Management and Budget. The
guidance also calls for FRA’s team to plan for these working groups, and for
senior management to approve the team’s positions, negotiation strategies, and

4
 In addition to the 17 rules, RSIA requires FRA to develop a long-term safety strategy, issue 2 guidance documents,
report to Congress on the results of 17 studies, and develop 2 model State laws.
                                                                                   4


timetables prior to working group meetings. The purpose of this planning is to
allow the Agency to speak with one voice during negotiations, and ensure that
working groups focus on realistic alternatives.

FRA executes its inspection and compliance responsibilities through a staff of
railroad safety experts. Safety inspectors are assigned to eight regions across the
United States and specialize in one of five safety disciplines—operating practices;
track; signal and train control; motive power and equipment; and hazardous
materials. FRA also employs technical specialists in positive train control, rail and
infrastructure integrity, and industrial hygiene. The specialists work throughout
the country and report to Division directors in FRA’s headquarters in Washington,
DC. Supervisors, also located throughout the country, are responsible for
evaluating inspectors’ performance.

FRA IS MAKING PROGRESS TOWARDS ISSUING RSIA-
REQUIRED RULES, BUT WEAKNESSES IN ITS PLANNING HAVE
DELAYED COMPLETION

FRA issued 8 of the 17 RSIA-required rules, and several others are nearing
completion. However, weaknesses in the Agency’s planning for its rulemaking
work have delayed rule issuance. FRA focused its early efforts almost entirely on
the PTC rule, but Agency officials did not establish clear priorities for work on the
other rules. Furthermore, FRA did not follow best practices for Federal Advisory
Committees or its own policy for the use of RSAC, resulting in procedural
inefficiencies such as no advance distribution of important documents.

FRA Has Made Progress on Issuing Rules but Missed Deadlines

FRA has issued eight rules, but missed statutory deadlines for seven, as shown in
Table 1. These eight rules include those on PTC, bridge safety and concrete tie
standards, and health and safety standards for camp cars—the camper-like units on
rail cars that Norfolk Southern uses to house its track maintenance crews at work
sites (see Exhibit C for further details).
                                                                                                             5


Table 1: Final RSIA Rules
    RSIA Section and Rule Topic              RSIA Deadline           Final Rule Date        Missed
                                                                                            Deadlines
                                                   a
    104 - Positive Train Control (PTC)       None                    January 15, 2010
    108 - Hours of Service
                                             April 14, 2009          May 27, 2009                
    Recordkeeping
    202 - State Action Plans (Crossing
                                             October 16, 2009        June 28, 2010               
    Safety)
    205 - Grade Crossing Emergency
                                             April 16, 2010          June 12, 2012               
    Reporting Number
    402 - Conductor Certification            April 16, 2010          February 8, 2012            
    403 - Concrete Ties                      April 16, 2010          April 1, 2011               
    417 - Bridge Safety Standards            October 16, 2009        July 15, 2010               
    420 - Camp Cars                          April 1, 2010           October 31, 2011            
Source: OIG Analysis
a
 Although RSIA does not contain a deadline for the issuance of the PTC rule, it does contain a deadline for
implementation of PTC systems by railroads.


As detailed in Table 2, FRA has made progress on the remaining 9 rules. These
nine include those on risk reduction programs, minimum training standards and
plans for safety-related railroad employees, and revisions of existing rules on drug
and alcohol testing to include maintenance of way employees. 5 Seven of the nine
unissued rules also have mandated deadlines, six of which the Agency has missed.




5
 Maintenance of way employees are workers that are responsible for the construction and maintenance of railroad
rights of way.
                                                                                             6


Table 2: RSIA Rules in Progress
    RSIA Section and Rule          RSIA Deadline    Most Recent   Date of Most       Missed
    Topic                                           Action        Recent Action      Deadlines
    103 - Risk Reduction           October 16,
                                                    ANPRM         October 8, 2010       
    Programs                       2012
    103 - System Safety            October 16,                    September 7,
                                                    NPRM                                
    Programs                       2012                           2012
    204 - Grade Crossing
                                   None             NPRM          October 18, 2012
    Inventory
    401 - Minimum Training         October 16,
                                                    NPRM          February 7, 2012      
    Standards and Plans            2009
    403 - Rail Integrity           May 2, 2013      NPRM          October 19, 2012
    406 - Dark Territory           October 16,      NPRM in
                                                                  None Reported         
    Signaling                      2009             Development
    410 - Critical Incident                         Rulemaking    November 14,
                                   None
    Plans                                           Initiated     2008
    412 - Drug and Alcohol         October 16,      NPRM in
                                                                  None Reported         
    Testing                        2010             Development
    413 - Emergency Escape
                                   April 16, 2010   NPRM          October 5, 2010       
    Breathing Apparatus
Source: OIG Analysis

FRA’s delayed promulgation of the rules has deferred mitigation of railroad
accidents that Congress intended the rules to address. For example, in the
Committee Reports accompanying RSIA’s passage, 6 Congress noted that human
factors caused the largest percentage of accidents. However, the Agency’s
promulgation of the rule setting minimum training standards for safety-related
railroad employees—a rule intended to reduce human-factor accidents—remains
incomplete even though the deadline was October 16, 2009. Even though this
rule’s deadline passed over 3 years ago, Agency officials said they made it a high
priority. Similarly, the rules that require freight and passenger railroads to
implement risk reduction programs and system safety programs are intended to
reduce the incidence of human-factor-caused accidents, but are still not finalized.
Furthermore, rules on emergency breathing apparatuses, grade crossing
inventories, and rail integrity are intended to mitigate risk of injury and death due
to hazardous materials releases, highway-rail grade crossings, and track defects,
respectively, but they are also all still outstanding.

FRA Focused Early Efforts on the PTC Rule, but Prioritization for the
Other Rules Remains Unclear

FRA officials informed us that they conducted comprehensive planning to
prioritize RSIA rulemaking projects. However, they could not provide evidence of

6
 S. Report 110-270 and H. Report 110-336
                                                                                                                       7


their decision making process, and prioritization of projects beyond the highest
priority—the PTC rule—is unclear. According to FRA officials, the Agency
focused first on the PTC rule due to the size and scope of its expected impact on
the railroad industry. 7 The Agency also interpreted the statute’s explicit deadlines
for industry implementation of PTC as deadlines for its promulgation of a rule.
Furthermore, according to FRA officials, the PTC rule was a highly technical one
that required significant resources from both the Agency and external
stakeholders. FRA issued its initial rule 8 well in advance of other rules because it
had allocated a substantial number of personnel to the rule’s development.

Best practices outlined by the Administrative Conference of the United States 9 call
for senior managers of Federal regulatory agencies to develop strategies for setting
rulemaking priorities and tracking initiatives. Other than the PTC rule as its first
priority, however, FRA could not provide a record of its decision making on how
it prioritized the other RSIA rules, and many of the officials involved in the
process have left the Agency. Absent documentation, FRA officials told us that the
Agency used a set of ten criteria—including project complexity, safety
implications, and statutory deadlines 10—to prioritize its RSIA rulemakings.
However, based on our analysis, FRA did not apply these criteria consistently. For
example, Agency officials stated that they gave high priority to certain projects—
chief among them the PTC rule—because they were complex, and others—such as
the rule on State action plans to address highway-rail grade crossing safety—
because they were simple. They stated further that they gave high priority to rules
with statutory deadlines. They also informed us that some rules with deadlines—
such as those on the health and safety standards for camp cars and emergency
notification systems for highway-rail grade crossings—were given lower priority
due to the Agency’s belief that the related safety issues had been largely resolved
without regulatory action.

FRA acknowledges that there is no document that clearly records how it made its
decisions on prioritization and related actions. In annual reports to Congress on its
RSIA initiatives, FRA summarized the mandates of the law and provided updates
on the status and planned steps to complete the requirements. The Agency also
cited priorities, but did not include its rationale for the prioritization of certain
rules over others or explanations of why priorities changed. Furthermore, in at

7
  In the regulatory impact analysis accompanying the first rulemaking on PTC, FRA estimated the cost to industry of
implementing the rule at between $9.6 billion and $13.2 billion.
8
  Due to litigation over the rule, FRA is required to issue two additional amendments to the rule on PTC, one of which is
not yet final.
9
  The Administrative Conference of the United States is an independent Federal Agency. One of its purposes is to study
the efficiency, adequacy, and fairness of the administrative procedures—including rulemaking—used by agencies in
carrying out programs and to make recommendations to improve them.
10
   Their other criteria were: the number of staff needed to complete a rulemaking; assigned staff’s existing workloads;
whether or not RSAC would participate; similar rulemakings already underway; a rulemaking’s impact on the regulated
community; policy and political interest associated with a rulemaking; and time needed to complete a rulemaking.
                                                                                                         8


least one report, FRA identified a finalized rule as a high priority. For example, in
its February 2011 report, the Agency cited work to finalize the rule on electronic
recordkeeping for hours of service as a top priority, even though it had issued the
final rule 2 years prior to the report. In the July 2012 report, FRA gave the same
rule a lower priority and used language nearly identical to that in its previous
report to describe its actions on the rule.

Moreover, managers gave multiple explanations of the Agency’s rationale for
prioritization. For example, according to one Agency manager, FRA started work
on the rule on conductor certification almost immediately after RSIA’s enactment
because it had an existing rule to use as a model and development would be
simple. However, a more senior official later informed us that the Agency gave
this rule high priority because it was a high priority for certain labor organizations.

Weaknesses in FRA’s Planning for the RSAC Working Group
Meetings Resulted in Inefficiencies

FRA used RSAC to develop 11 of the 17 RSIA rules. However, FRA did not
follow best practices or its own policy for use of the RSAC process, resulting in
procedural inefficiencies. Furthermore, FRA’s use of RSAC did not result in
significant reductions in the time needed to finalize the rules, despite Agency
officials’ naming faster rule issuance as one of the process’s major benefits. The
General Services Administration (GSA), the Agency responsible for oversight of
Federal Advisory Committees, has established best practices 11 for management of
successful committees. These best practices call for agencies to plan meaningful
agendas and carefully organize meetings’ logistics. The best practices also suggest
that agencies distribute agendas and materials in advance of meetings to help
committee members prepare, and to make sure that members clearly understand
the issues that fall within the committee’s scope.

FRA’s own policy on RSAC’s process incorporates some but not all of these best
practices. For example, the policy directs teams to plan for each RSAC working
group meeting to ensure that all issues are identified, all team members’ concerns
over the issues are addressed, and all team goals are met. However, the policy
does not require FRA staff to distribute meeting materials in advance to allow
committee members to prepare. For example, prior to an RSAC working group
meeting that we observed on an RSIA rule, FRA staff had not provided to
stakeholders copies of the rule outline that they planned to use as the basis for
meeting discussions. As a result, some stakeholders were not prepared to discuss


11
 The General Services Administration Office of Government-wide Policy, Advisory Committee Engagement Survey
(ACES) Best Practices Report, March 2005.
                                                                                                                   9


FRA’s proposal and some major issues were tabled for a second day of
discussions.

Furthermore, FRA staff did not follow the Agency’s policy on communicating
important information to the working group regarding regulatory impact
analyses. 12 The policy requires FRA staff to make stakeholders aware of the costs
and benefits of the issues under discussion. At one working group meeting,
however, committee members expressed confusion over how FRA staff had
arrived at cost and benefit estimates that had been published in the NPRM for the
rule. A time-consuming discussion took place about how to correct the
assumptions FRA staff had made in the regulatory impact analysis. At a working
group meeting we attended for a different RSIA rule, FRA’s economist did not
identify general cost-benefit implications during discussions of the proposals.
Consequently, because they did not have this information, the working group
members could not compare FRA’s assumptions to their own experience during
the group’s discussion.

FRA missed deadlines for 8 of the 11 rules it developed using RSAC. According
to FRA officials, working groups’ consensus prior to issuance of NPRMs allows
the Agency to move more quickly from NPRMs to final rules, even though it is
not a formal goal of the process. While the complexities of any given rule may
make direct comparisons of rulemakings difficult, analysis of the time FRA
required to issue final rules after NPRM publication is illustrative. FRA’s use of
the RSAC process generally did not result in faster rule development, despite the
intended benefit of making rule development more efficient. Table 3 compares the
days between NPRM and final rule for completed RSIA rules for which FRA used
RSAC to those that it did not.




12
  A regulatory impact analysis is an assessment, including the underlying analysis, of benefits and costs anticipated
from the regulatory action, together with a quantification of those benefits and costs, to the extent feasible.
                                                                                                              10


Table 3: Time Required to Finalize RSIA Rules
                                                                                      Days Between NPRM
RSIA Section and Regulatory Topic                                       RSAC
                                                                                         and Final Rule
§ 104 – PTC                                                               Yes                    162
                                                                                                     a
§ 108 - Hours of Service Recordkeeping                                    Yes                    N/A
§ 402 - Conductor Certification                                           Yes                    383
§ 403 - Concrete Ties                                                     Yes                    213
§ 417 - Bridge Safety Standards                                           Yes                    334
§ 202 - State Action Plans                                                No                     229
§ 205 - Grade Crossing Emergency
                                                                          No                     459
Reporting Number
§ 420 - Camp Cars                                                         No                     305
Source: OIG Analysis
a
FRA took advantage of an RSIA option to use RSAC to develop the rule and then proceed directly to final rulemaking
without issuing a NPRM.


Overall, the RSAC members we spoke with believed the RSAC provided value in
rule development. They informed us that RSAC can be an effective process for
bringing all stakeholders to the table to develop rules. However, several noted
ways that FRA could improve the process that would eliminate the procedural
inefficiencies that the RSIA working groups experienced. For example, one
member informed us that, in general, RSAC members do not receive FRA’s
assessments of proposed rules’ cost and benefit implications until FRA publishes
its regulatory impact analyses in NPRMs. The member noted that it would be
helpful if economists were to make working group members aware of their
analyses during group discussions to allow stakeholders to respond to FRA’s
estimates.

INSUFFICIENT GUIDANCE, TRAINING, AND SUPERVISORY
REVIEW HAVE HINDERED OVERSIGHT OF COMPLIANCE WITH
RSIA RULES

FRA did not provide its oversight staff with the guidance, training, and
supervision they needed to oversee compliance with certain RSIA rules. FRA
began oversight of its new rules on PTC, hours of service recordkeeping, concrete
crossties, bridge safety standards, and camp car health and safety before updating
its compliance manuals and related training to reflect the new rules. As a result,
FRA staff lacked the guidance and training that would have enhanced their
abilities to conduct effective oversight. Furthermore, FRA management and staff
informed us that some oversight work received little supervisory review.
                                                                                                                   11


FRA Did Not Update Compliance Manuals before Starting RSIA Rule
Enforcement Activities

FRA began compliance oversight for RSIA rules 13 before it provided completed
compliance manuals to its oversight staff. The Government Accountability Office
(GAO), which establishes standards for internal control in the Federal
Government, 14 directs Federal managers to clearly document internal controls in
management directives, administrative policies, or operating manuals.
Additionally, according to GAO, management is responsible for proper
maintenance of the documentation and records. FRA produces compliance
manuals for each of its safety disciplines. These manuals are the primary materials
for inspection staff’s classroom and on-the-job training. FRA also publishes these
compliance manuals on its Website to set organizational expectations for
inspection tasks, establish investigation requirements, and explain FRA’s
interpretation and application of rules to both the railroads it oversees and the
public. In addition to the guidance provided in the manuals, FRA inspectors
typically receive annual training on the rules they enforce.

FRA has published two compliance manuals that cover RSIA rules, but three
remain outstanding. As shown in Table 4, inspectors that oversee compliance on
hours of service recordkeeping and bridge safety have been performing
inspections for over a year without current compliance manuals. Additionally,
inspectors did not have a compliance manual to guide them for the three
inspections of camp cars they conducted.




13
   To analyze FRA’s ability to ensure compliance with the new rules, we limited our scope to final rules. See Exhibit A
for additional details about our methodology.
14
   GAO, Standards for Internal Control in the Federal Government, November 1999.
                                                                                                                   12


Table 4. Effective Dates of FRA’s Compliance Manuals
                                                   FRA                   Most Recent         Number of
Rule Topic           Rule’s Effective Date         Discipline            Update to           Days Without
                                                                         Manual              Manual
PTC                  March 16, 2010                Signal and            April, 2012           747
                                                   Train Control
Electronic           July 16, 2009                 Operating             No Manual in          1233
                                                                               a
Hours of                                           practices             Effect
Service
Recordkeeping
Conductor            February 8, 2012              Operating             No Manual in          296
                                                                               a
Certification                                      Practices             Effect
Concrete Ties        November 8, 2011              Track                 July, 2012            236
                                                   Maintenance
Bridge Safety        September 13, 2010            Rail and              No Manual in          809
Standards                                          Infrastructure        Effect
                                                   Integrity
Camp Cars            December 30, 2011             Industrial            No Manual in          336
                                                   Hygiene               Effect
Source: OIG analysis of FRA data.
a
 FRA published a new Operating Practices Manual in November 2012, but the sections related to electronic
recordkeeping of hours of service and conductor certification were not included.

Twelve of the 36 FRA safety staff that we interviewed 15 told us that to enforce
new rules without updated compliance manuals, they relied on the rules’ text and
preambles published in the Federal Register. They also said that regulatory
language is often open to interpretation, and to clarify aspects of the rules, they
discussed their interpretations with colleagues and supervisors. For example,
FRA’s new bridge safety standards went into effect in September 2010, but over
2 years later, FRA has not yet issued a compliance manual. According to FRA
officials, at the time of our review, the manual was still under development and
had not been sent to FRA’s Office of Chief Counsel for review. One of the
Agency’s five bridge safety specialists stated that a compliance manual is
important for correct interpretation of the new rule.

Similarly, FRA’s new camp car health and safety rule went into effect in
December 2011. FRA began enforcement activities in January 2012, but has not
yet provided its inspectors with a compliance manual. According to both FRA
inspectors that had conducted camp car inspections, the lack of a compliance
manual makes it difficult to conduct complete oversight. For example, the new
camp car rule defines potable water as water that meets the U.S. Environmental

15
  We interviewed all staff who have been responsible for oversight of the PTC (seven specialists and two senior test
monitors), bridge safety standards (five specialists and the chief engineer), and camp car rules (two inspectors). We
also interviewed random samples of ten operating practices and ten track inspectors. FRA employs 67 inspectors in
operating practices discipline, which oversees compliance with hours of service rules. FRA employs 73 inspectors in its
track discipline, which oversees the concrete cross tie rule. See Exhibit A for additional details on our methodology.
                                                                                  13


Protection Agency’s National Primary Drinking Water Standards. The rule also
contains requirements for the storing, testing, and distributing of potable water for
camp car inhabitants. However, an FRA inspector responsible for two camp car
inspections informed us that because he had no guidance on how to test water
quality, he would report that the water was potable if he observed that it looked
clear. According to FRA officials responsible for the manual’s development, as of
July 2012, the manual was still incomplete and would have to be reviewed by
FRA’s Office of Chief Counsel before issuance to inspectors.

FRA issued compliance manuals on the PTC and concrete crosstie rules after the
rules were in effect. According to FRA officials, an internal review of the PTC
manual—issued in April 2012, over 2 years after the rule’s effective date—
contributed to the manual’s late issuance. Similarly, FRA issued its track safety
standards manual, which includes guidance on concrete crosstie rules, in July
2012—almost 8 months after the concrete crossties rule went into effect. FRA
officials attributed this delay to a lengthy review process and the collaboration
with the training division on the manual’s update. According to FRA, compliance
manuals are important for staff’s interpretation of the rules and the railroads’
education on the rules.

This lack of current compliance manuals leaves FRA inspectors without formal,
written guidance on complete oversight of the RSIA-required rules. Consequently,
inspectors often develop ad hoc interpretations for enforcing the rules. Similarly,
because they do not have access to FRA’s interpretation of the rules in these
manuals, railroads and other industry stakeholders face difficulties planning for
and adhering to new regulatory requirements.

Some Enforcement Staff Have Not Received Training on Compliance
Enforcement

We spoke with 21 staff responsible for oversight of three RSIA rules—PTC, camp
car health and safety standards, and electronic hours of service recordkeeping—
and 13 informed us that they lacked sufficient training to oversee the industry’s
implementation of the rules. According to GAO’s standards, personnel need a
level of competence that allows them to accomplish their assigned duties.
Additionally, according to GAO, management must identify the needed
knowledge and skills for various jobs and provide appropriate training.

While FRA policy requires training assessments for new rules, we found
differences between managers’ assessments of inspectors’ training needs and what
the inspectors told us their needs were. For example, Agency officials informed us
that they did not have time to develop PTC training due to heavy workloads. FRA
therefore provided on-the job training by sending PTC staff from FRA’s regions
                                                                                                       14


where little PTC testing 16 occurs to assist with oversight in regions where testing
does occur. Six of the nine PTC oversight staff informed us that they need
additional training in order to be confident in their abilities to oversee PTC tests.

Both FRA inspectors that have conducted camp car inspections under the new
health and safety standards reported that their oversight has been incomplete
because it requires use of equipment with which they have no experience or
training. For example, the rule contains requirements for the amount of light inside
camp cars. The inspectors, however, informed us that they lacked training on how
to measure the lighting and did not have the proper measuring equipment.
Consequently, they did not review compliance with this part of the rule. FRA
management stated that the final compliance manual will contain clear instructions
for complete oversight of the rule, including the use of necessary equipment, and
staff will not need additional training.

While all OP inspectors we spoke with indicated that they had received sufficient
training about the content of the new hours of service rule, half of them also said
they lacked sufficient training on how to access electronic records of employees’
hours of service—or hours spent on work shifts. In order to retrieve hours of
service records from the railroads’ electronic systems, usually in response to an
employee complaint or as part of an accident investigation, inspectors had
to request assistance from FRA management or railroad employees. This need for
assistance made their inspections of the records more time consuming. FRA
management explained that there is training on electronic recordkeeping under
development, but in general, hours of service enforcement is not a top priority for
the OP Division because other rules are more likely to improve safety.

Insufficient training for enforcement staff impedes FRA’s efforts to ensure that
railroads comply with its rules.

FRA Does Not Consistently Conduct Supervisory Reviews

FRA’s supervisory review of oversight work has been inconsistent. Staff and
management responsible for enforcement of five regulatory areas—bridge safety
standards, hours of service, concrete crossties, camp car health and safety
standards, and PTC—informed us that there is a lack of supervisory review of
some oversight work. GAO’s Standards for Internal Control call for Federal
management to provide qualified and continuous supervision to ensure that
internal control objectives are achieved. The Standards specify that ongoing
monitoring should occur in the course of, and be integrated with, an agency’s
normal operations. FRA has implemented this standard by requiring that

16
  FRA staff oversee the tests that railroads conduct to ensure that PTC technology functions safely.
                                                                                                                 15


supervisors review their staff’s work. However, the Agency has not defined what
constitutes a qualified and continuous review, and does not require that
supervisors create and maintain records of their reviews. 17

In the absence of Agency policy for the conduct and documentation of supervisory
review, supervisors’ reviews of safety oversight work have been inconsistent. For
example, most OP and track inspectors we spoke with reported that continuous
supervisory review of their oversight work on the hours of service and concrete
crosstie rules does occur. Four of the 20 inspectors we interviewed, however,
informed us that, to their knowledge, their supervisors conducted few if any
reviews of their enforcement work. Managers in both the OP and track divisions
reported that direct supervisors are responsible for reviews of inspectors’ work.
However, they also informed us that FRA does not have policies on the frequency
of supervisory review. Furthermore, while supervisors are responsible for
documenting annual performance reviews, OP and track division policies do not
call for supervisors to document their ongoing reviews of inspectors’ oversight
work.

Staff who oversee rules on bridge safety standards informed                             us that they had no
knowledge of ongoing review of their inspections. The                                    bridge specialists’
supervisor told us that he dedicates his time to reviews of                             railroads’ plans for
maintenance of bridge structural integrity—the same work                                that the specialists
do—but he does not review the specialists’ work.

Staff and management responsible for oversight of the camp car and PTC rules
informed us that there was a lack of qualified supervisory review of some work.
Track division staff have been inspecting camp cars to supplement the industrial
hygiene division’s staff, but there has been little supervisory review of the track
division staff’s inspections by qualified industrial hygienists. Two of seven PTC
specialists informed us that their supervisors did not provide regular feedback on
their oversight work. One staff person attributed this lack of review to the
supervisor’s lack of knowledge of the PTC system he oversees.

This lack of continuous and qualified supervisory review of oversight work
compromises FRA’s ability to ensure that oversight of RSIA rules is correct and
complete.




17
   FRA does require supervisors to document reviews of safety violation reports. By issuing a violation report to a
railroad, FRA starts the process by which instances of noncompliance with Federal safety rules are ultimately brought
to the railroad’s attention through the civil penalty process. Supervisors indicate their review and approval of
inspectors’ violation reports by forwarding them to FRA’s Office of Chief Counsel for review and assessment of civil
penalties.
                                                                                  16


CONCLUSION

RSIA gave FRA new regulatory responsibilities that have significant implications
for railroad industry safety. Achievement of the safety-related outcomes that
Congress intended under RSIA is dependent upon Agency managers’ planning and
direction of resources and FRA’s attention to all of its oversight responsibilities.
Deficiencies in FRA’s planning and actions to ensure compliance with new rules
will hinder the Agency’s ability to meet its congressional mandates and improve
rail safety.

RECOMMENDATIONS

We recommend that the Federal Railroad Administrator:

 1. Develop a plan for completion of outstanding RSIA-required rulemakings.
    The plan should include milestones for completion and describe the
    Agency’s rationale for prioritization of rulemakings.

 2. Conduct an assessment of the way that RSAC is used to identify
    improvements that could improve efficiency.

 3. Require the updating of compliance manuals or other written guidance by
    rules’ effective dates to ensure that FRA inspectors and railroads are aware of
    the rules’ requirements and FRA’s interpretations of the rules.

 4. Establish a formal process for inspectors to participate in the identification of
    training needs for new rules.

 5. Require inspectors to receive updated training prior to conducting
    compliance inspections to enforce new or revised rules.

 6. Develop a policy that defines what constitutes qualified and continuous
    supervisory reviews and requires supervisors to create and maintain records
    of their reviews.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of this report to FRA on January 18, 2013, and received the
Agency’s response, which is included in its entirety as an appendix to this report,
on March 21, 2013. In addition, FRA provided technical comments on a draft of
this report, which we incorporated, as appropriate. FRA concurred or partially
                                                                                  17


concurred with all of our recommendations. FRA’s proposed actions for
recommendation 2 are responsive and we consider it resolved but open pending
completion of planned actions.

However, in the introductory comments in its response, FRA incorrectly states that
our conclusions leading to recommendation 2 are based on our partial attendance
at only 3 of 50 RSAC meetings. In fact, our findings regarding the RSAC process
derive from numerous meetings with FRA staff and managers and with a wide
variety of stakeholder groups. Our observations of the RSAC meetings simply
corroborated many of the concerns previously raised in those meetings. We have
modified our scope and methodology in Exhibit A to more fully explain our work
related to this finding.

FRA’s proposed actions for recommendations 1, 3, 4, 5, and 6 do not address the
intent of our recommendations and we consider those recommendations open and
unresolved. Specifically:

For recommendation 1, FRA partially concurred. The Agency proposes providing
us with a document that broadly explains its prioritization and describes its
progress on each remaining RSIA rulemaking requirement with associated
milestones. However, we do not consider FRA’s proposed actions responsive. To
consider the recommendation resolved, we will need additional information on
FRA’s planned actions. Specifically, FRA’s document will need to outline a
strategy for completing outstanding rulemaking requirements along with
associated milestones, the Agency’s rationale for prioritization of the
requirements, and how that prioritization will be translated into action.

For recommendation 3, FRA partially concurred and indicated that it plans to
“continue to ensure that inspectors and regulated entities have guidance documents
in advance of the rules’ effective dates.” However, we found that the guidance
provided to inspectors did not equip FRA inspectors to perform effective
oversight. In its introductory comments, FRA cited positive replies to two
questions from a broad survey of the Office of Railroad Safety workforce.
Specifically, 80 percent agreed that the “workforce has the job-relevant knowledge
and skills necessary to accomplish organizational goals[,]” and 77 percent of
respondents agreed that they had “enough information to do [their jobs] well.” We
cannot comment on the validity of the survey and do not have specifics on the
response rate FRA received. In contrast to a broad based employee satisfaction
survey, we spoke with numerous FRA staff responsible for oversight of the PTC
rule, the bridge safety standards rule, and conducting inspections of camp cars,
and additional staff from FRA’s track and operating practices disciplines. Many of
these individuals told us that in the absence of additional written guidance, they
relied on discussions with their colleagues to clarify aspects of rules that are open
                                                                                 18


to interpretation. FRA’s plan to continue its current practice does not address the
concern we identified. Therefore, we request that FRA reconsider its response and
detail how it will develop a policy or alternative procedures to ensure that
inspectors have sufficient written guidance prior to undertaking enforcement
activities for new rules.

For recommendation 4, FRA partially concurred. FRA references its performance
management system, which provides for employee involvement in performance
plan development and the use of performance appraisals as a basis for determining
their training needs. FRA’s plan to reemphasize its current approach is a
misinterpretation of the intent of our recommendation. We therefore have
modified the language of our recommendation to clarify our intent. We recognize
that in discussions regarding employees’ performance, supervisors likely discuss
employees’ training needs. However, our concern is that FRA is not addressing
specific training needs to meet newly developed requirements. Because many of
the inspection staff we spoke with identified additional training needs in light of
their new responsibilities, FRA’s plan to reemphasize its current approach is not
sufficient. We agree with FRA that the Agency should not create redundant
requirements, especially if those requirements do not address the identified
management control weakness. We request that FRA reconsider its response and
provide details on how it plans to meet the intent of the recommendation.

For recommendation 5, FRA concurred and stated that its current practice for
training inspectors on new rules involves the use of “discipline-specific and multi-
region meetings as cost-effective opportunities for rule development teams to
discuss implementation with front-line inspectors.” However, the supervisors of
staff responsible for overseeing three of FRA’s new rules informed us that training
was not available at the time that enforcement began. Furthermore, many staff
responsible for overseeing these rules informed us that they lacked sufficient
training to oversee the industry’s implementation of the new rules. As a result,
FRA’s intent to address our recommendation by incorporating current practice into
policy is insufficient to ensure that FRA’s staff can confidently oversee railroads’
compliance with the Agency’s rules. Accordingly, FRA’s planned actions are not
responsive and we consider the recommendation unresolved.

For recommendation 6, FRA concurred and stated that it will review in more detail
its supervisory review practices, and within 180 days of issuance of this report,
provide us a summary of the review. However, as we noted in our report, the
Agency has not defined what constitutes qualified and continuous supervisory
review for all inspection activities, and does not require supervisors to maintain
records of their reviews. FRA’s review of its supervisory practices will need to
address these concerns in order for us to consider their actions fully responsive
and the recommendation resolved.
                                                                                19


ACTIONS REQUIRED

FRA’s planned actions and timeline for recommendation 2 is responsive, and we
consider that recommendation resolved but open pending completion of the
planned actions. FRA’s planned actions to address recommendations 1, 3, 4, 5,
and 6 are not responsive. We consider these recommendations open and
unresolved. In accordance with Department of Transportation Order 8000.1C, we
request that FRA provide additional information regarding their planned actions
for recommendations 1, 3, 4, 5, and 6, as described above, within 30 days of this
report. We appreciate the courtesies and cooperation of FRA representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-9970, or Yana Hudson, Program Director, at (202) 366-2985.

                                        #

cc:   DOT Audit Liaison, M-1
      FRA Audit Liaison, RAD-43
                                                                                20


EXHIBIT A. SCOPE AND METHODOLOGY

We conducted our work from February 2012 through January 2013 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To evaluate FRA’s progress developing and issuing RSIA-required rules, we
analyzed RSIA to determine which rules it directs FRA to promulgate, and
verified the status of the rules as of October 31, 2012, using documents obtained
from the Federal Register, the Unified Regulatory Agenda, and FRA. To
determine how late overdue rules were, we calculated the number of days that had
elapsed after the statutory deadlines. We interviewed the Acting Associate
Administrator, Staff Directors responsible for appropriate Divisions, and
appropriate Specialists from FRA’s Office of Safety Assurance and Compliance;
several Economists and the Director of the Office of Safety Analysis; and trial
attorneys and Deputy Associate Chief Counsels from FRA’s Office of Chief
Counsel to identify the challenges FRA faced in developing and issuing RSIA
rules.

To assess FRA’s planning for RSAC working group meetings, we analyzed best
practices for the management of Federal Advisory Committees published by the
GSA, assessed FRA’s policy for the RSAC process, and conducted more than 15
interviews with FRA staff and managers involved in the development of rules
using the RSAC process and representatives of RSAC member organizations. We
also attended three RSAC meetings to corroborate the information provided in
those interviews.

To assess FRA’s ability to ensure compliance with RSIA rules, we examined all
five final RSIA-required rules for which FRA had oversight responsibilities as of
or prior to July 1, 2012 and for which FRA will have ongoing oversight
responsibility. These five rules were the PTC, electronic hours of service
recordkeeping, concrete crossties, bridge safety standards, and camp car rules. We
met with Staff Directors and Specialists in FRA’s Office of Safety Assurance and
Compliance to determine FRA’s progress updating compliance manuals and
training to incorporate new rules.

To determine the preparedness of FRA’s safety inspectors to enforce the RSIA
rules, we conducted structured interviews with 36 inspectors responsible for the
oversight of all five rules within the scope of the analysis. We spoke with all FRA
staff who have been responsible for overseeing PTC (seven inspectors and two

Exhibit A. Scope and Methodology
                                                                                  21


senior test monitors), bridge safety standards (five specialists), and camp car rules
(two inspectors). For electronic hours of service recordkeeping, and concrete
crossties, we coordinated with OIG’s statistician to select, from the Department of
Transportation’s Pay and Personnel database, a random sample of 10 out of
73 track and 10 out of 67 OP inspectors. Because our samples were random, they
are unbiased, but because of small sample sizes, they may not be representative.

Only one railroad, Norfolk Southern, is affected by the camp car rule because it is
the only one that houses employees in camp cars. To determine whether Norfolk
Southern had received sufficient guidance from FRA about the new rule and what
role FRA officials have played in overseeing Norfolk Southern’s
continued compliance, we visited the Norfolk Southern railroad to meet with
officials and see a set of refurbished camp cars.




Exhibit A. Scope and Methodology
                                                                          22



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED
   • Federal Railroad Administration, Headquarters (DC)

      o Office of Chief Counsel
      o Office of Safety Assurance and Compliance
         Industrial Hygiene Division
         Operating Practices Division
         Rail Infrastructure and Integrity Division
           • Bridge and Structures Safety Staff
         Signal and Train Control Division
           • PTC Staff
         Track Division
      o Office of Safety Analysis
         Railroad Safety Information Management Division
         Risk Reduction Program Division
         Highway-Rail Crossing and Trespasser Programs Division
         Railroad Safety Technical Training and Standards Division
         Safety Regulatory Analysis Division

   • Offices of the Regional Administrators (Inspection staff)

      o   Region 1, Cambridge, MA
      o   Region 2, Crum Lynne, PA
      o   Region 3, Atlanta, GA
      o   Region 4, Chicago, IL
      o   Region 5, Ft. Worth, TX
      o   Region 6, Kansas City, MO
      o   Region 7, Sacramento, CA
      o   Region 8, Vancouver, WA

   • RSAC working group meetings

Labor Organizations

   • United Transportation Union (UTU)
   • Brotherhood of Maintenance of Way Employees Division (BMWED)

Trade Associations

   • Association of American Railroads (AAR)
   • National Railroad Construction and Maintenance Association (NRCMA)



Exhibit B. Acti vities Visited or Contacted
                                                                    23


   • American Short Line & Regional Railroad Association (ASLRRA)
   • American Public Transit Association (APTA)

Railroads

   • Norfolk Southern (NS)




Exhibit B. Acti vities Visited or Contacted
                                                                                              24



EXHIBIT C. FRA’S PROGRESS ON RSIA-MANDATED RULES
RSIA Section      Description of Rules Requirements and FRA's Progress to            Rule's
                  Date                                                               Status
                   Rulemaking in Progress:        Rulemaking Complete: 

                  Requires FRA to issue rules requiring all Class I freight
                  railroads and freight railroads with inadequate safety
                  performance to develop and implement safety risk reduction
                  programs that systematically evaluate railroad safety risks on
                  the railroads' systems and manage those risks in order to
      § 103
                  reduce the number and rates of railroad accidents, injuries, and
 Risk Reduction                                                                          
                  fatalities. The deadline for issuance of this rule was October
    Programs
                  16, 2012.

                  FRA issued an Advanced Notice of Proposed Rulemaking
                  (ANPRM) on December 2, 2010, and a Notice of Proposed
                  Rulemaking (NPRM) is currently under development.


                  Requires FRA to issue rules requiring all intercity passenger
                  and commuter railroads to develop and implement system
                  safety programs that systematically evaluate railroad safety
                  risks on the railroads' systems and manage those risks in order
     § 103
                  to reduce the number and rates of railroad accidents, injuries,
 System Safety                                                                           
                  and fatalities. The deadline for issuance of this rule was
   Programs
                  October 16, 2012.

                  FRA issued an NPRM on August 17, 2012 and a Final Rule is
                  currently under development.


                  Requires FRA to issue a rule which establishes in appropriate
                  detail the essential functions of PTC systems and the process
                  by which those systems will be qualified by FRA. The rule must
                  require all Class I, intercity passenger, and commuter railroads
    § 104
                  to submit to FRA a plan for implementation of positive train
 Positive Train
                  control by December 31, 2015.                                          
   Control
    (PTC)
                  FRA issued a final rule on December 30, 2009, with
                  amendments published on September 15, 2010, and May 9,
                  2012. As a result of a settlement agreement related to pending
                  litigation, FRA is developing amendments to the rule.


                  Requires FRA to issue a rule that revises hours of service
     § 108        recordkeeping regulations and authorizes electronic
   Hours of       recordkeeping for rail employees' hours of service. The
    Service       deadline for issuance of this rule was April 14, 2009.                 
 Recordkeeping
                  FRA issued its final rule on May 19, 2009, over a month
                  (35 calendar days) after the deadline established in RSIA.




Exhibit C. FR A’s PROGRESS ON RSI A-M AND ATED RULES
                                                                                                                25



                       Requires FRA to issue a rule to require the 10 States with the
                       highest number of grade crossing collisions over the previous
                       3 years to submit grade crossing safety plans to FRA for
        § 202
                       approval. The deadline for issuance of this rule was October
     State Action
                       16, 2009                                                                             
       Plans for
    Crossing Safety
                       FRA issued its final rule on June 22, 2010, almost 8 and a half
                       months (249 calendar days) after the deadline established in
                       RSIA.


                       Requires FRA to issue a rule mandating reporting to the
                       National Highway-Rail Crossing Inventory by all States and
         § 204                    1
                       railroads.
      Inventory of                                                                                          
    Grade Crossings
                       FRA has established guidance for the States and railroads and
                       issued a NPRM on October 12, 2012.


                       Requires FRA to issue a rule calling for all railroads to establish
        § 205          reporting systems for the public to advise them of safety issues
    Grade Crossing     at their grade crossings. The deadline for issuance of this rule
      Emergency        was April 16, 2010.                                                                  
       Reporting
       Systems         FRA issued its final rule on June 1, 2012, over 2 years (777
                       calendar days) after the deadline established in RSIA.


                       Requires FRA to issue a rule establishing minimum training
                       standards for all safety-related railroad employees and to
                       require the railroads to submit to FRA for approval plans for
        § 401          training programs that meet those standards. The deadline for
      Minimum          issuance of this rule was October 16, 2009.
       Training                                                                                             
    Standards and      FRA issued an NPRM on January 25, 2012. FRA held a
        Plans          meeting with the RSAC Working Group tasked with developing
                       this rule to discuss the comments the Agency received in
                       response to its proposed rule on May 8, 2012. A final rule is
                       under development.


                       Requires FRA to issue a rule requiring the certification of
                       railroad conductors. Railroads’ certification programs should
                       meet the minimum training standards established pursuant to
        § 402          §401.The deadline for issuance of this rule was April 16, 2010.
    Certification of                                                                                        
     Conductors        FRA issued a final rule on October 26, 2011, over a year and
                       half (558 calendar days) after the deadline established in RSIA.
                       In response to petitions for reconsideration, FRA issued
                       amendments on February 2, 2012.



1
 The Moving Ahead for Progress in the 21st Century Act of 2012 (Pub. L. No. 112-141) repealed the RSIA mandate
that FRA issue a rule requiring states to update the inventory, but the mandate regarding railroad reporting stands.


Exhibit C. FR A’s PROGRESS ON RSI A-M AND ATED RULES
                                                                                             26



                    Requires FRA to conduct a study of inspection practices and
                    then issue rules based on the study's results within two years
                    of the study’s completion.
    § 403
                                                                                         
 Rail Integrity
                    FRA has completed the study and issued a NPRM on
                    October 12, 2012. The study was published on May 2, 2011.
                    As a result, the final rule deadline is May 2, 2013.


                    Requires FRA to issue a rule on the integrity and safety of
                    concrete crossties. The deadline for issuance of this rule was
                    April 16, 2010.
    § 403
                                                                                         
 Concrete Ties      FRA issued its final rule on March 24, 2011, almost a year and
                    a half (342 calendar days) after the deadline established in
                    RSIA. The rule was subsequently amended in response to
                    petitions for reconsideration.


                    Requires FRA to issue standards, guidance or rules governing
                    railroads’ use of signaling technology in "dark territories"—
                    areas that have no signaling or other control systems. The
                    deadline for issuance of this rule was October 16, 2009.
     § 406
  Signaling in                                                                           
                    FRA initiated the RSAC process for this rulemaking, however
 Dark Territory
                    the Agency suspended the working group’s activities when it
                    became apparent to the Agency that the committee was
                    unlikely to reach consensus. FRA is independently developing
                    a NPRM.


                    Requires FRA to issue a rule that defines the term "critical
                    incident" and requires all Class I, intercity passenger and
                    commuter railroads to submit to FRA for approval plans for
                    offering debriefing, counseling, and other support services to
                    employees affected by critical incidents. The deadline to initiate
                    this rulemaking was November 16, 2008.

                    FRA initiated this rulemaking on November 14, 2008, 2 days
      § 410
                    before the deadline to initiate this rulemaking.FRA spent a year
Critical Incident                                                                        
                    to design and plan a study, followed by another year to solicit
      Plans
                    and award a grant for the study. FRA initially tasked the RSAC
                    Medical Standards working group with this rulemaking,
                    however the Agency decided to task RSAC with the Critical
                    Incident Plan rule separately when it judged the Medical
                    Standards Working Group to be to contentious. FRA is
                    developing a NPRM based on its study and the discussions of
                    the working group, and anticipates issuing a NPRM in
                    February, 2013.




Exhibit C. FR A’s PROGRESS ON RSI A-M AND ATED RULES
                                                                                          27



                   Calls for FRA to revise its existing rule on drug and alcohol
                   testing to include maintenance of way workers—workers that
     § 412         are responsible for the construction and maintenance of
    Drug and       railroad rights of way. The deadline for issuing this rule was     
 Alcohol Testing   October 16, 2010.

                   A NPRM is currently under development.


                   Requires FRA to issue a rule calling for railroads to make
                   emergency breathing equipment available on locomotives for
                   employees' use in case of hazardous materials spills.
     § 413
  Emergency
                   FRA issued a NPRM on September 28, 2010, and a final rule is
    Escape                                                                            
                   under development. FRA has completed a draft of the final
   Breathing
                   rule; however the anticipated costs far exceed the anticipated
  Apparatus
                   benefits. As a result, FRA is considering whether there is an
                   economically efficient method for complying with the statutory
                   mandate.


                   Requires FRA to issue a rule calling for owners of track carried
                   on one or more railroad bridges to adopt bridge management
     § 417         programs. The deadline for issuance of this rule was October
 Bridge Safety     16, 2009.                                                          
  Standards
                   FRA issued a final rule on July 7, 2010, almost a year
                   (264 calendar days) after the deadline established in RSIA.


                   Calls for FRA to promulgate new health and safety standards
                   for camp cars that serve as housing for railroad employees.
     § 420
                   The deadline for issuance of this rule was April 1, 2010.
   Camp Car                                                                           
   Standards
                   FRA issued a final rule on October 24, 2011, over a year and a
                   half (571 calendar days) after the deadline established in RSIA.




Exhibit C. FR A’s PROGRESS ON RSI A-M AND ATED RULES
                                                           28


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Yana Hudson                             Program Director

Brendan Culley                          Project Manager

Matt Williams                           Senior Analyst

Aaron Schwarz                           Analyst

Olivia Starr                            Analyst

Susan Neill                             Writer-Editor

Megha Joshipura                         Statistician




Exhibit D. Major Contributors to This Report
                                                                                                            29




           U.S. Department
           of Transportation
           Federal Railroad
           Administration                                                MEMORANDUM
           INFORMATION: FRA Response to OIG Draft Report:
Subject:                                                                          Date:    March 21, 2013
           Rail Safety Improvement Act of 2008

  From:
           Joseph C. Szabo
              Administrator

           Mitchell L. Behm
                                                                            Reply to the
    To:       Assistant Inspector General for Rail, Maritime,                   Attn of:   ROA-03
                  and Economic Analysis

           2012 was the safest year in rail history, 1 continuing the decades-long reductions in accidents and
           incidents and improvements in departmental and FRA safety performance measures. This
           achievement is even more noteworthy because Amtrak ridership reached an all-time high; rail
           was the fastest-growing mode of public transit; and intermodal freight traffic surged toward a
           new record. As demand for rail services grew, record-setting federal investment—combined
           with substantial private sector support—continued building the foundation for safer, more
           reliable, and more efficient rail transportation in the future.

           This safety record, although never sufficient, is due primarily to the Federal Railroad
           Administration’s (FRA) comprehensive approach, which melds research and development,
           establishment of minimum requirements, outreach and stakeholder collaboration, compliance
           inspections, and enforcement. FRA’s multidimensional safety strategy is fostering a safety
           culture evolution toward non-punitive hazard analysis, accident prevention, and innovation.
           Positive train control systems will be the technology backbone that ensures continuous safety
           improvement through elimination of certain human factor related incidents and will compliment
           FRA's efforts related to crash energy management.

           While FRA values the rail industry’s tremendous progress, we are not satisfied with current
           safety outcomes. Congress demonstrated its similar concern by enacting the far-reaching Rail
           Safety Improvement Act of 2008 (RSIA). FRA has successfully implemented many of RSIA’s
           numerous mandates, including rulemakings, and is pursuing completion of remaining provisions,
           consistent with the availability of resources.

           Successful Rulemaking

           1
               Based on preliminary data from the FRA Safety Database.



           Appendix. Agency Comments
                                                                                                                        30


OIG’s draft report acknowledges some FRA accomplishments on RSIA mandates, but it does not
convey the context, complexities, and requirements of FRA’s mission and the rulemaking
process. FRA measures its mission success in terms of safety progress—lower rates of rail-
related accidents and incidents. FRA’s regulatory program maximizes safety by developing
rules based on facts, incident and accident causation analysis, comparison of alternative
mitigation measures, and cost-effective solutions. Successful rules consider current and future
industry capabilities, compliance burden and cost, and other economic and social realities. In
this context, FRA makes every effort to reach statutory milestones with its available resources.

To maximize safety through its regulatory program, FRA often works with the Railroad Safety
Advisory Committee (the Committee), thereby improving the quality and transparency of rule
development. As its charter states, in part,
   The Committee . . . fully involves our affected entities, makes the best use of resources, and
   accommodates the rapidly evolving changes in the rail transportation industry. By
   harnessing the combined wisdom, resources, and experience of railroad industry experts who
   have the greatest knowledge and interest in promoting rail safety, including security, FRA is
   able to leverage its resources to produce rules that are more responsive, flexible, and better
   accepted by those required to implement them.
In 2012, the Committee held approximately 50 working group and other meetings, many of
which were multiple days long. OIG’s report includes conclusions about the Committee’s
efficiency based on auditors’ partial attendance at 3 of the 50 meetings. Other modal
administrations within the U.S. Department of Transportation are modeling their advisory
committees on FRA’s experience.

Moreover, the federal rulemaking process is designed to ensure analytical rigor, multiple
opportunities for public participation, and coordination across agencies. Consequently, a
rulemaking might take years to complete. When rules involve particularly complex, contentious,
or novel issues, the process takes much longer. For example, “significant regulatory actions” 2
require departmental and Office of Management and Budget review and clearance, which
lengthens the process by up to 4 months at each of the proposed rule and final rule stages. Many
RSIA rulemakings fall into the significant regulatory action category, with the associated longer
process, further increasing FRA’s challenge to meet statutory milestones.

Ensuring Compliance

As OIG recognizes in its draft report, ensuring compliance with new rules is essential to
maximizing safety outcomes. To that end, FRA has built a safety oversight workforce that is
highly motivated, well trained, and expertly skilled in numerous technical disciplines and


2
    The criteria for “significance” include any regulatory action that is likely to result in a rule that may have an annual effect on
    the economy of $100 million or more or adversely affect in a material way the economy, a sector of the economy, productivity,
    competition, jobs, the environment, public health or safety, or State, local, or tribal governments or communities. (Executive
    Order 12866, Regulatory Planning and Review, September 30, 1993)


Appendix. Agency Comments
                                                                                                            31


specialties. Many inspectors and specialists come to FRA with decades of operational
experience, which we build on and refine through continuous, comprehensive, and specialized
guidance, classroom and on-the-job training, mentoring, and developmental opportunities.
FRA’s results on the 2012 government-wide Employee Viewpoint Survey confirm this
achievement, 3 in contrast with OIG’s anecdotes from a small number of employees. Almost
80 percent of Office of Railroad Safety respondents agreed or strongly agreed with the statement,
“The workforce has the job-relevant knowledge and skills necessary to accomplish
organizational goals,” compared to the government-wide average of 72 percent. In addition,
almost 77 percent of Office of Railroad Safety respondents agreed or strongly agreed with the
statement, “I have enough information to do my job well,” 5 percentage points higher than the
government-wide average.

Because FRA’s goal is continuous safety improvement, it devotes substantial resources to
supporting and developing our mission-critical workforce. FRA is committed to exploring
additional tools and techniques that will further develop our inspectors and specialists, as FRA’s
responses to the recommendations below explain further.



OIG Recommendations and FRA Responses

OIG Recommendation 1: Develop a plan for completion of outstanding RSIA-required
rulemakings. The plan should include milestones for completion and describe the Agency’s
rationale for prioritization of rulemakings.

      FRA Response: Concur in part. FRA has maintained a continuous planning effort,
      through DOT’s regulatory review process and consultations with stakeholders, since RSIA’s
      enactment. DOT’s Regulatory Management System contains FRA’s milestones for the
      remaining RSIA rulemaking mandates, reflecting this planning, review, and consultation
      effort. To fulfill this recommendation explicitly, FRA will provide a document within 90
      days of OIG’s issuance of its final report that synthesizes FRA’s RSIA-related planning
      materials. The document will broadly explain FRA’s prioritization and describe FRA’s
      progress on each remaining RSIA rulemaking requirement with associated milestones.

OIG Recommendation 2: Conduct an assessment of the way that [the Rail Safety Advisory
Committee (the Committee)] is used to identify improvements that could improve efficiency.

      FRA Response: Concur. Since its inception, the Committee has developed remarkable
      consensuses on numerous complex and challenging regulatory matters. Nevertheless, FRA
      welcomes ideas to improve the Committee’s future efficiency and effectiveness, thereby
      further leveraging FRA’s resources to produce safety solutions that are more responsive,

3
    About 77 percent of FRA employees responded to the 2012 survey, compared to the department rate of 62 percent and the
    government-wide rate of 46 percent.


Appendix. Agency Comments
                                                                                        32


   flexible, and readily implemented. FRA will solicit ideas from the Committee participants


   and review relevant federal advisory committee best practices for efficiency opportunities.
   Moreover, FRA looks forward to learning about the Committee member suggestions OIG
   heard during its audit. Not later than 12 months after OIG’s issuance of its final report, FRA
   will provide OIG a summary of this effort.

OIG Recommendation 3: Require the updating of compliance manuals or other written
guidance by rules’ effective dates to ensure that FRA inspectors and railroads are aware of the
rules’ requirements and FRA’s interpretations of the rules.

   FRA Response: Concur in part. FRA agrees that its inspectors and regulated parties
   should be fully aware of FRA requirements and interpretations as regulatory changes become
   effective. To that end, FRA uses numerous methods to maintain the currency of its
   inspectors’ knowledge base, including the preamble and section-by-section analysis in the
   rulemaking documents; training sessions, webinars, and video teleconferences; public and
   internal Web site postings; technical bulletins; and consultations, in addition to compliance
   manuals.

   Moreover, as affected parties and inspectors gain experience with new requirements, FRA
   refines its interpretations and perfects its guidance to reflect this accumulated knowledge.
   Issuing compliance manual updates before this learning process unfolds would be premature
   and not a cost-effective use of resources. Furthermore, FRA compliance manuals by
   themselves are not the proper instrument—nor are they intended to be used—for providing
   new guidance, addressing issues of first impression, or training inspectors on new
   regulations. Compliance manuals are compilations of enforcement and interpretative
   guidance that is developed and updated over time. FRA recently completed new versions of
   its compliance manuals. Looking forward 5 to 10 years, advances in technology and
   communications will likely enable FRA to rely increasingly on flexible, electronic solutions,
   rather than static compliance manuals.

   As FRA completes the remaining RSIA rules, FRA will continue to ensure that inspectors
   and regulated entities have guidance documents in advance of the rules’ effective dates.
   Accordingly, FRA requests that OIG close this recommendation.

OIG Recommendation 4: Establish a formal process for inspectors to participate in the
identification of their training needs.

   FRA Response: Concur in part. Identifying training needs and opportunities is necessarily
   a collaborative effort between employee and supervisor; FRA requires such collaboration
   (Order FRA 3430.5D, October 2011). FRA’s performance management program specifically
   provides for employee involvement in performance plan development (Section 2, 1.a) and the


Appendix. Agency Comments
                                                                                       33


   use of performance appraisals as a basis for determining training needs (Section 9, 4.a).
   Supervisors discuss training needs with each employee no less frequently than twice each
   year—at the beginning and midpoint of each performance period. The supervisor discusses
   with the employee past performance, areas for improvement, and training needs and
   opportunities.

   In addition, FRA’s competency model, Learning and Development Guide for Employees,
   Team Leaders, and Supervisors, identifies 16 core competencies for inspectors. FRA policy
   requires inspectors and supervisors to use this model and planning tool to help identify
   employee strengths and weakness non-punitively. The tool, which is available electronically,
   encourages two-way communication between supervisor and subordinate. As a result, they
   might agree that the employee will take FRA technical training courses, study independently,
   or engage in formal practice sessions with coaching and on-the-job training or informal
   practice with feedback. FRA also conducts a formal needs analysis at the end of each fiscal
   year to determine technical training needs.

   Rather than create a redundant requirement, FRA proposes to close this recommendation by
   reemphasizing the existing requirements with supervisors and employees and underscoring it
   in FRA’s supervisory training materials. FRA expects to accomplish these measures within
   45 days of OIG’s issuance of its final report.

OIG Recommendation 5: Require inspectors to receive updated training prior to conducting
compliance inspections to enforce new or revised rules.

   FRA Response: Concur. This recommendation reflects FRA’s current practice for
   implementing regulatory changes. In addition to the practices described in FRA’s response
   to recommendation 3 above, FRA has used discipline-specific and multi-region meetings as
   cost-effective opportunities for rule development teams to discuss implementation with front-
   line inspectors. To close this recommendation, FRA proposes to incorporate existing
   practices, subject to the availability of funds, into policy. FRA expects to accomplish this
   action within 180 days of OIG’s issuance of its final report.

OIG Recommendation 6: Develop a policy that defines what constitutes qualified and
continuous supervisory reviews and requires supervisors to create and maintain records of their
reviews.

   FRA Response: Concur. FRA organizes its oversight and enforcement workforce
   geographically, with further distinctions based on technical disciplines and functions. Each
   discipline and functional group has distinct responsibilities and supervision structures and
   practices, which also reflect FRA’s grade structure. In all cases, FRA takes advantage of
   technology to ensure employees and supervisors communicate frequently whether or not they
   are in the same location.



Appendix. Agency Comments
                                                                                         34


   FRA assigns the rail safety inspectors to geographic regions. Within each region, the
   inspectors report to supervisory specialists by technical discipline (i.e., operating practices,
   track, hazardous materials, motive power and equipment, and signal and train control).
   Inspector grades include GS-7 through GS-12; supervisory specialists are GS-13s. FRA’s
   National Inspection Plan guides the field inspectors’ work plan and activities. Supervisory
   specialists accompany inspectors on some inspections to verify that they conduct inspections
   properly and in accordance with the General Manual. In addition, FRA’s Inspection
   Dashboard helps supervisory specialists monitor the productivity of individual inspectors,
   including their adherence to the National Inspection Plan and the numbers and types of
   defects. The Dashboard also includes accident data, which helps supervisory specialists
   detect emerging safety issues that the frequency or quality of inspections might influence.

   FRA strategically locates functional specialists (i.e., positive train control, bridge, rail
   integrity, and industrial hygiene) throughout the United States. These specialists, regardless
   of their primary duty stations, report to Washington, D.C.-based staff directors.
   Commensurate with their grade levels, functional specialists generally work independently.
   Functional specialist grades are GS-12, GS-13, and GS-14; staff directors are GS-15s. Staff
   directors review all responses to enforcement findings, which are documented for the record
   and then subject to FRA senior leadership review. In addition to unscheduled contacts, staff
   directors typically hold at least six staff meetings each year to provide guidance and discuss
   issues.

   Layering onto these supervisory practices, FRA’s performance management program applies
   to all staff, as referenced in FRA’s response to recommendation 4 above. This program
   includes employee and supervisor agreement on the employee’s critical performance
   objectives and standards, coaching and feedback throughout the year, and mid-year reviews
   and year-end appraisals to document each employee’s individual and team accomplishments.

   In response to OIG’s recommendation, FRA will review in more detail its supervisory
   practices, with particular focus on functional specialists and documentation. Within 180 days
   of OIG’s issuance of its final report, FRA will provide OIG a summary of the review,
   including identification of cost-effective opportunities to strengthen employee-supervisor
   communication, information sharing, and record keeping.



We appreciate this opportunity to offer additional perspective on the OIG draft report. We also
appreciate the courtesies of the OIG staff in conducting this review. Please contact Rosalyn G.
Millman, FRA Planning and Performance Officer, at 202.493.1339, with any questions or
requests for additional assistance.




Appendix. Agency Comments
